                                                      IG-00-016




REVIEW
                            PROCUREMENT MODULE TESTING OF
REPORT                       NASA’S INTEGRATED FINANCIAL
                                  MANAGEMENT PROGRAM

                                     March 17, 2000




                           OFFICE OF INSPECTOR GENERAL

National Aeronautics and
Space Administration
Additional Copies

To obtain additional copies of this report, contact the Assistant Inspector General for Auditing at
(202) 358-1232, or visit www.hq.nasa.gov/office/oig/hq/issuedaudits.html.


Suggestions for Future Audits

To suggest ideas for or to request future audits, contact the Assistant Inspector General for
Auditing. Ideas and requests can also be mailed to:

     Assistant Inspector General for Auditing
     Code W
     NASA Headquarters
     Washington, DC 20546-0001


NASA Hotline

To report fraud, waste, abuse, or mismanagement, contact the NASA OIG Hotline at (800) 424-
9183, (800) 535-8134 (TDD), or at www.hq.nasa.gov/office/oig/hq/hotline.html#form; or write to
the NASA Inspector General, P.O. Box 23089, L’Enfant Plaza Station, Washington, DC 20026.
The identity of each writer and caller can be kept confidential, upon request, to the extent permitted
by law.


Reader Survey

Please complete the reader survey at the end of this report or at
http://www.hq.nasa.gov/office/oig/hq/audits.html.



Acronyms

FAR            Federal Acquisition Regulation
IFMP           Integrated Financial Management Program
OMB            Office of Management and Budget
W                                                                                           March 17, 2000



TO:               A/Administrator

FROM:             W/Inspector General

SUBJECT:          INFORMATION: Review of the Procurement Module Testing of NASA’s
                  Integrated Financial Management Program
                  Report Number IG-00-016


The NASA Office of Inspector General has completed a review of the Procurement Module
Testing of NASA’s Integrated Financial Management Program (IFMP). The audit was
completed prior to recent NASA actions to critically examine continuation of the IFMP contract.
The IFMP procurement module was intended to provide NASA with a comprehensive system of
acquisition management tools encompassing requisition, bid, purchase order, and contract
management. The Associate Administrator for Procurement requested that we review NASA’s
validation testing of the procurement module. We reviewed three procurement subprocess
activities1 in detail and found that the NASA procurement process test team had adequately
developed validation tests for determining whether the IFMP procurement module can properly
process valid data.2 The validation tests also adequately addressed applicable Federal
Acquisition Regulation (FAR), NASA FAR Supplement, and functional requirements.3
However, we found that the procurement process test team did not include adequate testing of
controls over erroneous inputs. Erroneous data includes data that is inaccurate, was improperly
authorized, or has incomplete data fields. This occurred because (1) NASA did not specifically
require tests using transactions with erroneous data in the validation phase and (2) the test team
has not documented the specific tests and data to process during internal control testing. Without
adequate testing of controls over processing of erroneous data, NASA had less assurance that the
procurement module would adequately identify, reject, and report erroneous data that could
corrupt the database.



1
  The three subprocess activities we reviewed in detail are, initiate acquisition request, award contract, and close-out
contract
2
  Valid data is accurate, authorized, and complete (contains no blank data fields).
3
  The NASA Grants and Cooperative Agreement Handbook (Handbook) states requirements, policies, and
procedures applicable to the IFMP procurement module. The Handbook corresponds to requirements, policies, and
procedures contained in the FAR and NASA FAR Supplement. Therefore, we did not assess compliance with
Handbook requirements, policies, and procedures for the three reviewed activities. The testing objective was to
determine whether the procurement module met NASA's functional requirements.
                                                                                                   2

Background

NASA was testing the IFMP system in three phases, system and integration, data conversion, and
validation. The system and integration phase demonstrates that the IFMP system functions as a
single logical system from a system user’s perspective. The data conversion phase was intended
to demonstrate that the IFMP system accurately converts data from existing computer systems
into IFMP system data. The validation phase was intended to determine whether the IFMP
system’s software meets requirements before management proceeds with IFMP system
implementation.

In December 1998, NASA began validation testing of the procurement module at the Marshall
Space Flight Center with NASA and contractor representatives, the procurement process test
team. The test team followed the IFMP testing approach in “The Agency-Level Validation Test
Plan.” The plan specifies tests and data the test team will process during the validation phase.

The procurement process test team was responsible for developing the test components for the
procurement module. The components are test scenarios, scripts, cycles, and data. In the initial
development of the test scenarios, the procurement process test team used functional
requirements listed in the IFMP contract. The test team broke the requirements down further into
test conditions to determine the individual items to be tested. The team also used procurement
process flow diagrams, system configuration information, and NASA documents and
transactions as input to the test scenarios. Each of the scenarios consists of a series of inputs and
expected outcomes that confirm that a requirement or variation of a requirement has been met.

Recommendations, Management's Response, and OIG Evaluation

Management concurred in principle with our recommendation that the Associate Administrator
for Procurement should ensure that internal control testing includes adequate tests of erroneous
data. The Agency stated that the responsible contractor will document the revised internal
control testing strategy to identify the types of erroneous data the team will process during
internal control testing. However, the schedule for validation testing has become less predictable
in the current IFMP contract environment.

The actions taken by management are responsive to the recommendation. We consider the
recommendation resolved for reporting purposes and will continue to monitor the
recommendation until it is dispositioned.

[Original signed by]
Roberta L. Gross

Enclosure
Final Report on the Review of the Procurement Module Testing
 of NASA’s Integrated Financial Management Program
                   FINAL REPORT
REVIEW OF THE PROCUREMENT MODULE TESTING OF NASA’S
    INTEGRATED FINANCIAL MANAGEMENT PROGRAM
W                                                                               March 17, 2000


TO:            B/Chief Financial Officer
               H/Associate Administrator for Procurement

FROM:          W/Assistant Inspector General for Auditing

SUBJECT:       Final Report on the Review of the Procurement Module Testing of NASA’s
               Integrated Financial Management Program
               Assignment Number A9901700
               Report Number IG-00-016


The subject final report is provided for your use. Please refer to the Results in Brief section for
the overall review results. Our evaluation of your response is incorporated into the body of the
report. The recommendation will remain open for reporting purposes until corrective action is
completed. Please notify us when action has been completed on the recommendation, including
the extent of testing performed to ensure corrective actions are effective.

If you have questions concerning the report, please contact Mr. Lorne A. Dear, Program Director,
Procurement Audits, at (818) 354-3360; Ms. Nora Thompson, Program Manager, Procurement
Audits, at (757) 864-3268; or Mr. Mark Zielinski, Auditor-in-Charge, at (216) 433-5414. We
appreciate the courtesies extended to the review staff. The report distribution is in Appendix F.

[Original signed by]


Russell A. Rau

Enclosure
cc:
AO/Chief Information Officer
B/Comptroller
BF/Director, Financial Management Division
G/General Counsel
JM/Director, Management Assessment Division
bcc:
AIGA, IG, Reading Chrons
H/Mr. Horvath
H/Ms. Thompson
W/Mr. Dear
W/Ms. Thompson
W/Mr. Zielinski
                                 NASA Office of Inspector General
IG-00-016                                                                                         March 17, 2000
A9901700

                    Procurement Module Testing of NASA’s Integrated
                            Financial Management Program

Introduction

Office of Management and Budget (OMB) Circular A-127, “Financial Management Systems,”
requires Federal agencies to maintain a single, integrated financial management system. The
Circular requires integrated financial management systems to apply consistent internal controls
over data entry, transaction processing, and reporting to ensure the validity of information and
protection of Federal Government resources. The General Accounting Office, “Standards for
Internal Control in the Federal Government,”4 states that controls in a computerized system
ensure the system processes transactions that are accurate, properly authorized, and complete.
Management is responsible for developing the controls and for making them an integral part of
operations.

In response to OMB Circular A-127 requirements, NASA established the Integrated Financial
Management Program (IFMP). The IFMP procurement module will provide NASA with a
comprehensive system of acquisition management tools encompassing requisition, bid, purchase
order, and contract management. The module will comply with Federal Acquisition Regulation
(FAR) and NASA FAR Supplement requirements (see Appendix B). The IFMP procurement
module incorporates three major procurement subprocesses (presolicitation; solicitation and
award; and contract administration). The three subprocesses consist of eight subprocess
activities. We judgmentally selected one activity (see Appendix C) in each of the three
subprocesses and reviewed testing of the selected activities.

NASA is testing the IFMP system in three phases, system and integration, data conversion, and
validation. The system and integration phase demonstrates that the IFMP system functions as a
single logical system from a system user’s perspective. The data conversion phase demonstrates
that the IFMP system accurately converts data from existing computer systems into IFMP system
data. The validation phase determines whether the IFMP system’s software meets requirements
before management proceeds with IFMP system implementation. Validation testing should
include the processing of valid data5 and erroneous data.6 Processing erroneous data determines
whether the software identifies, rejects, and reports data that is inaccurate, invalid, or incomplete.




4
  The General Accounting Office issued the standards in November 1999.
5
  Valid data is accurate, authorized, and complete (contains no blank data fields).
6
  Erroneous data includes data that is inaccurate, was improperly authorized, or has incomplete data fields.
NASA is testing the IFMP system with support from two contractors, KPMG Peat Marwick7 and
PricewaterhouseCoopers.8 KPMG Peat Marwick is responsible for system and integration testing
and data conversion testing. PricewaterhouseCoopers will provide a variety of services including
validation testing support and independent verification and validation activities designed to
ensure system quality and integrity. NASA also tasked PricewaterhouseCoopers with assessing
the internal controls for NASA’s reengineered business processes9 and the IFMP system.
PricewaterhouseCoopers will perform internal control testing activities in all phases of the IFMP
system project. During validation testing, PricewaterhouseCoopers will perform assessments to
identify critical internal control objectives.

The Associate Administrator for Procurement requested that the Office of Inspector General
review NASA’s validation testing of the procurement module. See Appendix A for a discussion
of the review’s objectives, scope, and methodology.


Results in Brief

For the three procurement subprocess activities reviewed, the NASA procurement process test
team had adequately developed validation tests for determining whether the IFMP procurement
module can properly process valid data. The validation tests also adequately addressed
applicable FAR, NASA FAR Supplement, and functional requirements.10 However,
procurement module testing did not include adequate testing of controls over erroneous inputs.
Consequently, NASA has less assurance that such controls adequately identify, reject, and report
erroneous input.


Background

In December 1998, NASA began validation testing of the procurement module at the Marshall
Space Flight Center with NASA and contractor representatives,11 the procurement process test
team. The test team followed the IFMP testing approach in “The Agency-Level Validation Test
Plan.”12 The plan specifies tests and data the test team will process during the validation phase.


7
  NASA contract NAS5-97237 outlines KPMG Peat Marwick’s responsibilities.
8
  The contract with PricewaterhouseCoopers is the General Services Administration contract GS-35F-4351G (NASA
task W-91584).
9
  Business process reengineering is the streamlining of business processes, most often through different and better
information technology, in order to produce more efficient and effective operations. NASA completed the
reengineering of its business processes in April 1998.
10
   The NASA Grants and Cooperative Agreement Handbook (Handbook) states requirements, policies, and
procedures applicable to the IFMP procurement module. The Handbook corresponds to requirements, policies, and
procedures contained in the FAR and NASA FAR Supplement. Therefore, we did not assess compliance with
Handbook requirements, policies, and procedures for the three reviewed activities.
11
   The contractors were KPMG Peat Marwick and PricewaterhouseCoopers.
12
   NASA and PricewaterhouseCoopers revise the “Agency-Level Validation Test Plan” as testing progresses. We
reviewed the December 4, 1998, draft and revisions to the draft effected through October 1999.

                                                        2
Validation testing involves Agency-level tests and Center-level tests. Agency-level tests help
ensure the procurement module will execute Agency-level functional and data requirements that
resulted from business process reengineering. Initially, the test team conducted Agency-level
executability tests designed to give assurance that no critical defects existed in the procurement
module. After completing the executability tests, the test team began integration tests.
Integration tests ensure overall integration among the IFMP system modules, the data entered
into the modules, and the modules’ interfaces with external systems. The test team must
successfully complete all Agency-level tests, including all integration tests, before beginning the
Center-level tests.

The procurement process test team is responsible for developing the test components for the
procurement module. The components are test scenarios, scripts, cycles, and data (all are defined
in Appendix D). In the initial development of the test scenarios, the procurement process test
team used functional requirements listed in the IFMP contract. The test team broke the
requirements down further into test conditions to determine the individual items to be tested.
The team also used procurement process flow diagrams, system configuration information, and
NASA documents and transactions as input to the test scenarios. Each of the scenarios consists
of a series of inputs and expected outcomes that confirm a requirement or variation of a
requirement has been met.


Validation Testing of the IFMP Procurement Module

Finding. For the three subprocess activities we reviewed (see Appendix C for the specific
activities reviewed), the procurement process test team developed adequate test scripts using
transactions with valid data.13 However, validation testing of the procurement module does not
include adequate testing of controls over transactions with erroneous data. This occurred
because (1) NASA did not specifically require tests using transactions with erroneous data in the
validation phase and (2) the test team has not documented specific tests and data to process
during internal control testing. Without adequate testing of controls over processing of erroneous
data, NASA has less assurance that the procurement module will adequately identify, reject, and
report erroneous data that could corrupt the database.


Testing to Date. The procurement process test team is performing the integration testing portion
of Agency-level validation tests. As of December 1999, the test team executed 494 of 505
planned integration test scripts. Of the 494 executed test scripts, 87 percent met the expected
outcomes and passed the test. In addition, PricewaterhouseCoopers has performed preliminary
assessments of the procurement module internal controls and is developing a detailed internal
control test plan.14

13
  The testing objective was to determine whether the procurement module met NASA’s functional requirements.
14
  Internal control testing, generally, includes tests of data integrity. However, NASA management and
PricewaterhouseCoopers had not completed the detailed test plan for internal control testing at the time of our
review.


                                                        3
Control and Testing Requirements. OMB Circular A-127 requires the effective use of controls
over data entered into, processed by, and output from a computer system. Effective controls
include the ability to identify, reject, and report erroneous data that may be introduced into the
IFMP procurement module. Additionally, “Standards for Internal Control in Federal
Government,” states that management should install controls at an application’s interfaces with
other systems to ensure that all inputs are received and are valid and that outputs are correct and
properly distributed. An example of such a control is a computerized edit check built into the
system to review the format, existence, and reasonableness of data.


Tests of Erroneous Data. For the three subprocess activities we reviewed, the procurement
process test team did not include erroneous data in the test scripts throughout validation testing.15
The test scripts included only valid data. The test team leader described informal tests of
erroneous data the test team performed at various points throughout validation testing. For
example, the team attempted to save, or post, a record with incomplete data. Also, the team
made attempts to award a contract by an individual not having the authority to award a contract.
The test team leader stated that although the informal tests were not formalized in a test script,
any type of error found through the informal testing was documented in accordance with the
Validation Test Plan.

In addition to the informal tests, the test team performed and documented destructive testing on
contract modifications; the destructive testing was not within the three reviewed subprocess
activities. During the destructive testing, the team attempted to save an existing record after the
test team edited various data fields.

The informal tests, as described by the test team leader, gave management a preliminary
indication that the procurement module rejected various elements of erroneous data. However,
the informal tests were not a structured, comprehensive approach to testing erroneous data. As a
result, NASA cannot be assured that informal testing adequately detected and disclosed problems
in the processing of erroneous data. Formal scripted tests of erroneous data are necessary to
ensure edit checks in the procurement module identify and reject erroneous data.


Erroneous Data Not Included in Test Plans. The “Agency-Level Validation Test Plan” does
not specifically require the procurement test team to incorporate tests of erroneous data in its
validation testing. Although the test plan identifies the types of data needed to conduct
validation tests, the plan does not address the inclusion of erroneous data in validation testing
and states that internal control testing is not part of validation testing. During validation testing,
NASA planned to test the overall functionality of the IFMP system and compliance with FAR
and the NASA FAR Supplement.


15
 We made this determination based on our review of the executability and integration test scripts provided to us by
October 1999.

                                                         4
Internal Control Test Plan. PricewaterhouseCoopers developed a comprehensive multiphased
approach16 to internal control testing. The contractor is developing an internal control test plan
to document specific tests that will be performed. The plan has been delayed because IFMP
schedule slips made system documentation and test results unavailable to the contractor.
PricewaterhouseCoopers has documented a revised internal control testing strategy. The strategy
lists data integrity as an internal control requirement that will be included in actual testing.
However, the strategy provides no description of the types of tests or data that would be
processed in data integrity tests. For example, data input or interfaces with other IFMP modules
can produce erroneous data in the procurement module. To ensure the procurement module
identifies, rejects, and reports erroneous data, internal control tests must adequately identify,
reject, and report erroneous data. Therefore, the internal control test plan should identify
erroneous data the test team will process during internal control testing.


Recommendations, Management’s Response, and Evaluation of Response

The Associate Administrator for Procurement should ensure internal control testing includes
adequate tests of erroneous data.


Management’s Comments. Concur in principle. Management stated that
PricewaterhouseCoopers will document the revised internal control testing strategy to identify
the types of erroneous data the team will process during internal control testing. However, the
schedule for validation testing has become less predictable in the current IFMP contract
environment. Therefore, the projected closure date for this action is at best a realistic estimate.

The complete text of management’s response is in Appendix E.

Evaluation of Response. The actions planned by management are responsive to the
recommendation. The recommendation is resolved but will remain undispositioned and open
until agreed-to corrective actions are completed.




16
   The multiphased approach assesses the potential impact of the Agency's reengineered business processes and new
financial management system on NASA’s compliance, financial reporting, and operational control objectives.




                                                        5
                   Appendix A. Objectives, Scope, and Methodology

Objectives

Our overall objective was to review NASA’s testing of the IFMP system procurement module.
Specifically, we reviewed the:

•    validation test plan,
•    test scripts and scenarios, and
•    executability and integration tests planned or previously performed.

Scope and Methodology

We interviewed NASA IFMP staff from various locations including NASA Headquarters and
Marshall Space Flight Center. We reviewed planning and testing documents developed by
NASA and the contractors. We examined IFMP test plans, test scenarios, test scripts, and
procurement process flow diagrams related to NASA’s validation tests. Specifically, we:

•     Reviewed the test plans, scenarios, and scripts to determine the strategy NASA used for the
      executability and integration phases of validation testing.
•     Reviewed the process flow diagrams for the three major subprocesses in the procurement
      environment and judgmentally selected one key activity in each of the three major
      subprocesses.17
•     Identified test scripts that incorporated the selected activities to determine how the test team
      tested the activity and its key decision points and interfaces.
•     Reviewed the test scripts data input to determine the type of data the test team processed
      during validation testing.
•     Identified the FAR or NASA FAR Supplement functional requirements in the key tasks
      (see Appendix B) and traced them to the test scripts to determine whether the test team
      included them in the tests.

Review Field Work

We performed our field work for this report from July through November 1999.




17
  We based the selection on the existence of (1) FAR or NASA FAR Supplement requirements, (2) key control or
decision points, and (3) interfaces with other modules.




                                                      6
                        Appendix B. FAR and NASA FAR Supplement
                           Requirements in Subprocess Activities

The following three tables show FAR and NASA FAR Supplement requirements for the three
reviewed activities (initiate acquisition request, award contract, and close-out contract). Each
table lists the requirements by task within each activity. Some of the requirements are not
incorporated within the procurement module activities, but are either incorporated with the
procurement module or interface modules or are stand-alone activities that are part of the
procurement process. For requirements involving interface modules, we determined that the
procurement module permitted compliance with the requirements.

                                   Table B-1 Presolicitation Subprocess
                                     “Initiate Acquisition Request”

      Task Within
       the Activity                      FAR Requirement                   NASA FAR Supplement Requirement
  Support Documents:
  Justification for Other   Part 6 – requires written justification and    Part 1806 – requires the contracting
  than Full and Open        formal approvals to utilize other than full    officer to prepare a written justification
  Competition               and open competition or to exclude sources     and to document specific reasons for
  (if necessary)            from competition.                              noncompetitive procurements and/or
                                                                           exclusion of sources from competition.

  Government-furnished Part 45 – requires the contracting officer to       Part 1845 – requires each solicitation
  Property Listing     identify Government-furnished property in           and contract to identify Government-
                       solicitations and contracts, if appropriate,        furnished property and applicable NASA
                       and include the appropriate clauses.                contract clauses

  Evaluation Criteria       Parts 15.304 – requires the solicitation to    Part 1815.3 – requires the use of three
                            state all factors that will affect the         evaluation factors (mission suitability,
                            evaluation of offers and contract award and    cost or price, and past performance) to
                            the significance of the factors.               evaluate proposals.

                            Clause 52.212-2 – requires solicitations for   Part 1871 –requires the request for
                            commercial items to include evaluation         offers.
                            factors, as appropriate.


 Acquisition Request:
  Certify Funds             No specific requirement.                       Part 1804.7301 – requires contracting
                                                                           officers to obtain an approved procure-
                                                                           ment request with a certification that
                                                                           funds are available before issuing a
                                                                           solicitation, except in unusual
                                                                           circumstances.

 Identify Accounting        Part 32.702 – requires the contracting         No specific requirement.
 Data                       officer to obtain written verification that
                            funds are available.
Appendix B


                                                           7
                      Table B-2 Solicitation and Award Subprocess
                                   “Award Contract”

     Task Within                 FAR Requirement                      NASA FAR Supplement Requirement
     the Activity
Verify Funds        Part 32.702 – requires the contracting officer    Part 1804.7301 – requires the
                    to obtain written verification that funds are     contracting officer to obtain an approved
                    available.                                        procurement request with a certification
                                                                      that funds are available before issuing a
                                                                      solicitation, except in unusual
                                                                      circumstances.

Approvals           No specific requirement.                          Part 1804.72 – requires 15 days for
                                                                      review of requests for approval of
                                                                      contracts and supplemental agreements
                                                                      by the Associate Administrator for
                                                                      Procurement on those contracts that
                                                                      require Headquarters review.

Process Award       Part 13.106-3 - requires the contracting          Part 1813-106-3 - requires the
Documents           officer to maintain the minimum                   contracting officer to briefly annotate
                    documentation in the contract file sufficient     files under $50,000 as the basis for
                    to reflect the basis for award and procedures     selection.
                    utilized.

                    Part 14.408-1 - requires that appropriate         Part 1814.408 - requires the contracting
                    approvals be obtained prior to award.             officer to notify the successful bidder
                                                                      either through a notice of award or an
                                                                      executed contract. (Sealed bidding)

                    Part 15.503 -requires that all offerors within    Part 1871.505 - requires that preaward
                    the competitive range be notified within 3        notices be electronically transmitted to
                    days of award.                                    offerors if the solicitation was posted
                                                                      electronically.

                    Part 15.504 - requires the contracting officer    Part 1871.504 - requires the contracting
                    to notify the successful offeror either through   officer to provide a paper copy of the
                    a notice of award or an executed contract.        contract to the successful offeror.

Announcements       No specific requirement.                          Part 1805.3 – requires a NASA
                                                                      Headquarters public announcement for
                                                                      contract actions with total expected
                                                                      value of $25 million or more.

                                                                      Part 1805.4 – requires that responses to
                                                                      congressional inquiries be forwarded to
                                                                      Headquarters Legal Affairs Office for
                                                                      approval and release.



                                                                                                 Appendix B


                                                   8
                        Table B-2 Solicitation and Award Subprocess
                                 “Award Contract” (Cont.)

    Task Within                    FAR Requirement                      NASA FAR Supplement Requirement
    the Activity
                                                                        Part 1871.506 – requires the contracting
                                                                        officer to electronically post contract
                                                                        award notice for 7 calendar days if the
                                                                        contract offers subcontracting
                                                                        opportunities or is subject to the Trade
                                                                        Agreements Act.

Post Award Synopsis   Parts 5.301 – requires the contracting officer    Part 1805.3 – requires a NASA
                      to synopsize awards in the Commerce               Headquarters public announcement for
                      Business Daily if they exceed $25,000; fall       contract actions with total expected value
                      under the Trade Agreements Act; or offer          of $25 million or more.
                      subcontracting opportunities.

                      Part 15.503 – requires that all offerors within
                      the competitive range be notified within 3
                      days of contract award.

Management Reports    Part 4.602 – requires the contracting officer     Part 1804.6 – requires the contracting
                      to report contract data to the Federal            officer to submit contract data on
                      Procurement Data Center.                          Individual Procurement Action Reports,
                                                                        (Form 507 series).
Distribution          Part 4.201 – requires the contracting officer     Part 1804.2 – requires the contracting
                      to distribute copies of the contract or           officer to distribute one copy of each
                      modifications within 10 working days after        research and development contract to the
                      all parties execute the contract.                 NASA Center for Aerospace
                                                                        Information.

                      Part 4.202 – requires the contracting officer
                      to coordinate distribution to the contract
                      administration office with a representative of
                      that office, when applicable.




                                                     9
Appendix B

                    Table B-3 Contract Administration Subprocess
                                “Close-out Contract”

    Task Within
    the Activity                FAR Requirement                    NASA FAR Supplement Requirement

Close-out          Part 4.804 – requires the contracting officer   Part 1804.804 – requires the contracting
Documentation      to meet time standards for closing contract     officer to complete NASA forms 1611
                   files.                                          and/or 1612, or Department of Defense
                                                                   form 1594 to close out the contract files.

Quick Close-out    Part 42.708 – permits the contracting officer   Part 1842.708 – to use quick close-out
Procedures         to negotiate settlement of indirect costs       procedures, the contracting officer must
                   before final indirect cost rates are            obtain a written agreement from the
                   determined. To negotiate, the contracting       contractor, a final voucher, a summary of
                   officer must determine whether 1) the           all costs by cost element and fiscal year,
                   contract is physically complete, 2) unsettled   and a copy of the final indirect cost rate
                   indirect cost is insignificant, and 3) agree-   proposal for each fiscal year. The
                   ment can be reached with the contractor on a    contracting officer also must request
                   reasonable estimate of allocable cost.          indirect cost information from the
                                                                   cognizant audit activity.

DCAA Audit Data    Part 42.705 – requires the establishment of     Part 1842.705 – requires the cognizant
                   the final indirect cost rates by contracting    NASA contracting officer to make the
                   officer or auditor determination within 120     final rate determination when NASA is
                   days of settlement of the final indirect cost   assigned that authority.
                   rates.

                   Part 32.905 – requires the agency payment       Part 1827.305-370 – requires the
                   office to pay the contractor’s invoice within   contracting officer to furnish a copy of
                   30 days after receipt or acceptance of          the contract, final technical report, and
                   supplies or services.                           interim technical progress reports to the
                                                                   New Technology Representative and
                                                                   Patent Representative when patents
                                                                   rights or New Technology clauses are
                                                                   included in the contract.

                   Clause 52.216-7 – requires the contracting
                   officer to promptly pay the balance of
                   allowable costs and fees after the contractor
                   complies with all the contract terms and
                   approval of the completion invoice or
                   voucher.




                                                  10
                                          Appendix C. Subprocess Flow Diagrams

For the presolicitation subprocess, we reviewed one activity, “Initiate Acquisition Request.”
The following subprocess flow diagram shows the tasks in the activity. See Appendix B for
FAR and NASA FAR requirements in the activity.

  Level 1
                                                                            Procurement




  Level 2
                                    Perform Pre-                                  Perform Solicitation and                                Perform Contract
                                     Solicitation                                         Award                                            Administration




  Level 3
                                            Initiate      Perform Pre-
                       Plan                                                             Solicit               Evaluate                 Award                  Administer        Close-out
                                          Acquisition      Solicitation
                     Acquisition                                                        Offer(s)              Offer(s)                Contract                 Contract         Contract
                                           Request          Activities




                                                                   Financial
  Level 4                                                        Classification
                                                                Structure (FCS)      Verification of
                                                               Information from          Funds
                                                                                    Availability from
                                                                Core Financial      Core Financial




    Decision to
      Initiate        Evaluate                Prepare              Prepare                                                                                                              Procurement
                                                                                               Determine              Obtain              Approvals               Funds
    Acquisition      Acquisition             Supporting           Acquisition                                                                           Yes                     Yes       Package
                                                                                                Routing              Approval             Obtained?              Certified?
     Request         Alternatives            Documents             Request


       Information                                                                                                                           No
      From Asset
      Management
                                                                                                                                         Work Issues                No




                                                                                                                                                                              Yes
                                                                                                                                           Issues
                                                                                                                                          Resolved?
                                                                                                             Notification to
                                                                                                                 Asset                       No
                                                                                                             Management
                                                                                                                       Notification
                                                                                                                             to            Cancel
                                                                                                                        Originator        Acquisition




                                                                                               11
Appendix C

For the solicitation and award subprocess, we reviewed one activity, “Award Contract.” The
following process flow diagram shows the tasks in the activity. See Appendix B for FAR and
NASA FAR requirements in the activity.



    Level 1
                                                                                              Procurement




    Level 2

                                            Perform Pre-                                           Perform Solicitation and                                           Perform Contract
                                             Solicitation                                                  Award                                                       Administration




    Level 3

                                               Initiate                   Perform Pre-                                                                                             Administer           Close-out
                        Plan                                                                           Solicit                 Evaluate                 Award                       Contract            Contract
                                             Acquisition                   Solicitation
                     Acquisition                                                                       Offer(s)                Offer(s)                Contract
                                              Request                       Activities




    Level 4


        Selected                                                                     Complete                      Required                 Process                   Prepare              Management
                                                                Funds
       Contractor                  Verify Funds                                 Yes Contractual                    Approvals     Yes         Award                  Management               Reports
                                                              Available?                                           Obtained?
              Funds                                                                 Documents                                              Document                   Reports
            Availability
            from Core                                                No                                              No
             Financial

                                                                                                                   Obtain                           Obligation of
                                                                     Work                                         Approvals                        Funds to Core
                                                                    Issues                                                                           Financial;
                                                                                                                                                   Control Funds
                                                                                                                                                         Notification of
                                                                                                                  Approvals                               Award to
                                                                                                                                     Yes
                                                                                                                  Obtained?                                  Asset
                                                                                                                                                         Management
                                                                                                                      No
                                                                                                                                             Yes                    Awarded
                                                                                                                                                                    Contract
                                        Notification to                                                             Work
                                            Asset                                                                  Issues
                                        Management                                                                                                                    Announcement

                                                  Notification to
                                                  Core Financial:              Cancel                              Issues
                                                                                                  No
                                                  Control Funds              Acquisition                          Resolved?




                                                                                                                  12
                                                                                                                                                                                          Appendix C

For the contract administration subprocess, we reviewed one activity, “Close-out Contract.” The
following process flow diagram shows the tasks in the activity. See Appendix B for FAR and
NASA FAR requirements in the activity.


    Level 1
                                                                               Procurement




    Level 2
                                  Perform Pre-                                       Perform Solicitation and                                     Perform Contract
                                   Solicitation                                              Award                                                 Administration




    Level 3

                                   Initiate                 Perform Pre-
                    Plan                                                          Solicit                Evaluate                Award                  Administer            Close-out
                                 Acquisition                 Solicitation
                  Acquisition                                                     Offer(s)               Offer(s)               Contract                 Contract             Contract
                                  Request                     Activities




                                                                                                                                                                        Evidence of
   Level 4                                                 Property                                                                                                    Final Payment
                                                         Clearance                                                                                                       from Core
                                                         from Asset                                                                                                      Financial;
                                                        Management                                                                                                        Process
                                                          (Disposal)                                                                                                     Payments




    Physically   Analyze Close                          Obtain Required                                                 Final Contract                                                     Archived
    Complete                     Is it Automatic                            Is Quick Close           Obtain DCAA                                Process Final            Archive
                      Out          Close Out?
                                                   No      Close Out
                                                                            Out Applicable?
                                                                                              No                         Modification      No                                              Contract
    Contract                                            Documentation                                   Audit             Required?               Voucher                Contract
                  Alternatives


                                                                                                                Yes
                                                                                                                            Yes

                                                                                                                                                   Request for
                                                                                                                                                  Final Payment
                                                                                                                                                 to Core Finance
                                                                                                                      Modify Contract;               Process
                                                                                                                        Administer                  Payments
                                                                                                                         Contract
                                                                                                                                                     Notification to
                                                                                                                                                     Core Finance;
                                                                                                                                                      Administer
                                                                                                                                                       Accounts
                                                                                                                                                      Receivable

                                                                                                       Yes



DCAA - Defense Contract Audit Agency




                                                                                               13
                       Appendix D. Test Component Definitions

NASA and contractor test managers make up the procurement process test team, which is
responsible for developing the test components for the procurement module. The four
components are defined below:

• Test Scenario - a series of inputs and expected results that confirm that a variation of a
functional requirement has been met.

• Test Script - a set of detailed test procedures to perform a business process including specific
keystrokes and entry screens used to accomplish a necessary action.

• Test Cycle - a logical series of test scenarios that test a specific segment of functionality
within a system.

•   Test Data - data needed to execute validation test scripts. The data consists of:

    –   Reference data - data needed to configure the procurement module and data that is
        accessed by transactions entered into the system. Reference data was prepared by NASA
        and incorporated into the configured system by KPMG Peat Marwick. Examples of
        reference data include: vendors, classification structure elements, payment terms, and
        beginning balances.

    – Transaction data - data that is contained in the test scripts and entered into the database
        when the script is executed.




                                                 14
Appendix E. Management’s Response




               15
Appendix E




             16
     Appendix E




17
                          Appendix F. Report Distribution


National Aeronautics and Space Administration (NASA) Headquarters

A/Administrator
AI/Associate Deputy Administrator
AO/Chief Information Officer
B/Chief Financial Officer
B/Comptroller
BF/Director, Financial Management Division
C/Associate Administrator for Headquarters Operations
G/General Counsel
H/Associate Administrator for Procurement
J/Associate Administrator for Management Systems
JM/Director, Management Assessment Division
L/Associate Administrator for Legislative Affairs
M/Associate Administrator for Space Flight
Q/Associate Administrator for Safety and Mission Assurance
R/Associate Administrator for Aero-Space Technology
S/Associate Administrator for Space Science
U/Associate Administrator for Life and Microgravity Sciences and Applications
Y/Associate Administrator for Earth Science
Z/Associate Administrator for Policy and Plans

NASA Centers

Director, Ames Research Center
Director, Dryden Flight Research Center
Director, Glenn Research Center at Lewis Field
Director, Goddard Space Flight Center
Director, Lyndon B. Johnson Space Center
Director, NASA Management Office, Jet Propulsion Laboratory
Director, John F. Kennedy Space Center
Director, Langley Research Center
Director, George C. Marshall Space Flight Center
Director, Stennis Space Center
Chief Counsel, John F. Kennedy Space Center



                                             18
                                                                                    Appendix F

Non-NASA Federal Organizations and Individuals

Assistant to the President for Science and Technology Policy
Deputy Associate Director, Energy and Science Division, Office of Management and Budget
Branch Chief, Science and Space Programs Branch, Energy and Science Division, Office of
   Management and Budget
Associate Director, National Security and International Affairs Division, Defense Acquisition
   Issues, General Accounting Office
Professional Assistant, Senate Subcommittee on Science, Technology, and Space

Chairman and Ranking Minority Member -- Congressional Committees and
Subcommittees

Senate Committee on Appropriations
Senate Subcommittee on VA, HUD, and Independent Agencies
Senate Committee on Commerce, Science, and Transportation
Senate Subcommittee on Science, Technology, and Space
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on VA, HUD, and Independent Agencies
House Committee on Government Reform and Oversight
House Subcommittee on Government Management, Information, and Technology
House Subcommittee on National Security, Veterans Affairs, and International Relations
House Committee on Science
House Subcommittee on Space and Aeronautics

Congressional Member

Honorable Pete Sessions, U.S. House of Representatives




                                               19
                  NASA Assistant Inspector General for Auditing
                                Reader Survey

The NASA Office of Inspector General has a continuing interest in improving the usefulness of
our reports. We wish to make our reports responsive to our customers’ interests, consistent with
our statutory responsibility. Could you help us by completing our reader survey? For your
convenience, the questionnaire can be completed electronically through our homepage at
http://www.hq.nasa.gov/office/oig/hq/audits.html or can be mailed to the Assistant Inspector
General for Auditing; NASA Headquarters, Code W, Washington, DC 20546-0001.


Report Title: Procurement Module Testing of NASA’s Integrated Financial Management
              Program

Report Number:                              Report Date:


Circle the appropriate rating for the following statements.

                                            Strongly                                Strongly
                                                       Agree   Neutral   Disagree   Disagree   N/A
                                            Agree
1. The report was clear, readable, and         5         4       3          2          1       N/A

   logically organized.
2. The report was concise and to the           5         4       3          2          1       N/A

   point.
3. We effectively communicated the             5         4       3          2          1       N/A

   audit objectives, scope, and
   methodology.
4. The report contained sufficient             5         4       3          2          1       N/A

   information to support the finding(s)
   in a balanced and objective manner.

Overall, how would you rate the report?

    Excellent           Fair
    Very Good           Poor
    Good
If you have any additional comments or wish to elaborate on any of the above responses,
please write them here. Use additional paper if necessary.
How did you use the report?




How could we improve our report?




How would you identify yourself? (Select one)

       Congressional Staff                      Media
       NASA Employee                            Public Interest
       Private Citizen                          Other:
       Government:            Federal:             State:         Local:


May we contact you about your comments?

Yes: ______                                 No: ______
Name: ____________________________
Telephone: ________________________


Thank you for your cooperation in completing this survey.
Major Contributors to This Report

Lorne Dear, Program Director, Procurement Audits

Nora Thompson, Program Manager, Procurement Audits

Mark Zielinski, Auditor-in-Charge

Yolande Harden, Procurement Analyst

Nancy C. Cipolla, Report Process Manager

Christina Head, Program Assistant
